<html>
<title> - CONGRESSIONAL - EXECUTIVE COMMISSION ON CHINA 2020 ANNUAL REPORT - EXECUTIVE SUMMARY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                 CONGRESSIONAL - EXECUTIVE COMMISSION ON CHINA
              
                     2020 ANNUAL REPORT - EXECUTIVE SUMMARY
    
                        ONE HUNDRED SIXTEENTH CONGRESS 
                       
                               SECOND SESSION
               
                                DECEMBER 2020



     
                 [TEXT NOT AVAILABLE PLEASE REFER TO PDF] 
</pre></body></html>
